REWARDS/FREE/GOLD
CONSUMER CREDIT CARD AGREEMENT
In this Agreement, " Agreement" means this Consumer Credit Card Agreement. " Disclosure" means the Credit
Card Account Opening Disclosure. The Account Opening Disclosure is incorporated into this Consumer Credit
Card Agreement and is part of the Agreement. In this Agreement the w ords " you," " your," and " yours" mean
each and all of those w ho agree to be bound by this Agreement; " card" means the Visa credit card and any
duplicates, renew als, or substitutions the Credit Union issues to you; " account" means your Visa credit card
line-of-credit account w ith the Credit Union; and " Credit Union" means the Credit Union w hose name appears on
this Agreement or anyone to w hom the Credit Union transfers this Agreement.
1. USING YOUR ACCOUNT - If you are approved for an account, the Credit Union w ill establish a line of credit
for you. You agree that your credit limit is the maximum amount (purchases, cash advances, finance charges,
plus " other charges" ) w hich you w ill have outstanding on your account at any time. Unless disclosed otherw ise,
the Credit Union w ill not allow advances over the credit limit. If the Credit Union has a program w hereby it allow s
payment of advances that exceed your credit limit, subject to a fee, the Credit Union w ill provide you w ith notice,
either orally, in w riting, or electronically (notw ithstanding the requirements of the paragraph entitled " Statements
and Notices" ) explaining your right to opt in to the Credit Union' s program w hereby it w ill honor advance
requests over the credit limit. In the event you opt in to such a program, you agree to the terms of such a
program. You may request an increase in your credit limit only by a method acceptable to the Credit Union. The
Credit Union may increase or decrease your credit limit, refuse to make an advance and/or terminate your account
at any time for any reason not prohibited by law . If you are permitted to obtain cash advances on your account,
w e may, from time to time, issue convenience checks to you that may be draw n on your account. Convenience
checks may not be used to make a payment on your account balance. If you use a convenience check, it w ill be
posted to your account as a cash advance. We reserve the right to refuse to pay a convenience check draw n on
your account for any reason and such refusal shall not constitute w rongful dishonor.
You may request that w e stop the payment of a convenience check draw n on your account. You agree to pay
any fee imposed to stop a payment on a convenience check issued on your account. You may make a stop
payment request orally, if permitted, or in w riting. Your request must be made w ith sufficient time in advance of
the presentment of the check for payment to give us a reasonable opportunity to act on your request. In addition,
your request must accurately describe the check including the exact account number, the payee, any check
number that may be applicable, and the exact amount of the check. If permitted, you may make a stop payment
request orally but such a request w ill expire after 14 days unless you confirm your request in w riting w ithin that
time. Written stop payment orders are effective only for six months and may be renew ed for additional six month
periods by requesting in w riting that the stop payment order be renew ed. We are not required to notify you w hen
a stop payment order expires. If w e re-credit your account after paying a check or draft over a valid and timely
stop payment order, you agree to sign a statement describing the dispute w ith the payee, to assign to us all of
your rights against the payee or other holders of the check or draft and to assist us in any legal action. You agree
to indemnify and hold us harmless from all costs and expenses, including attorney' s fees, damages, or claims,
related to our honoring your stop payment request or in failing to stop payment of an item as a result of incorrect
information provided to us or the giving of inadequate time to act upon a stop payment request.
2. USING YOUR CARD - You understand that the use of your credit card or credit card account w ill constitute
acknow ledgement of receipt and agreement to the terms of the Credit Card Agreement and Credit Card Account
Opening Disclosure (Disclosure). You may use your card to make purchases from merchants and others w ho
accept your card. The credit union is not responsible for the refusal of any merchant or financial institution to
honor your card. If you w ish to pay for goods or services over the Internet, you may be required to provide card
number security information before you w ill be permitted to complete the transaction. In addition, you may obtain
cash advances from the Credit Union, from other financial institutions that accept your card, and from some
automated teller machines (ATMs). (Not all ATMs accept your card.) If the credit union authorizes ATM
transactions w ith your card, it w ill issue you a personal identification number (PIN). To obtain cash advances from
an ATM, you must use the PIN issued to you for use w ith your card. You agree that you w ill not use your card
for any transaction that is illegal under applicable federal, state, or local law . Even if you use your card for an
illegal transaction, you w ill be responsible for all amounts and charges incurred in connection w ith the
transaction. If you are permitted to obtain cash advances on your account, you may also use your card to
purchase instruments and engage in transactions that w e consider the equivalent of cash. Such transactions w ill
be posted to your account as cash advances and include, but are not limited to, w ire transfers, money orders,
bets, lottery tickets, and casino gaming chips, as applicable. This paragraph shall not be interpreted as permitting
or authorizing any transaction that is illegal.
3. PROMISE TO PAY - You promise to pay all charges (purchases, cash advances, balance transfers, use of
convenience checks or any other charge) made to your account by you or anyone you authorize to use your
account. You also promise to pay all finance charges and other charges added to your account under the terms of
this Agreement or another agreement you made w ith the Credit Union. If this is a joint account, the paragraph on
JOINT ACCOUNTS also applies to your account.
CUNA Mutual Group 2008 All Rights Reserved

DMDDW5 (MXC501 CCM002)-e

4. PERIODIC RATES - The periodic rates applicable to purchases, cash advances, and balance transfers are
disclosed on the Disclosure that accompanies this Agreement. Any penalty rate that may be imposed for failing to
make a payment by the payment due date is also disclosed on the Disclosure. Any rate change w ill be made
pursuant to applicable law . If the rate for your account is variable, as indicated on the accompanying Disclosure,
the rate charged on purchases, cash advances, balance transfers and any penalty rate w ill vary periodically as
disclosed in the Disclosure accompanying this Agreement. The initial rate on your account for certain types of
transactions may be an introductory discounted rate (Introductory Rate) that is low er than the rate that w ould
ordinarily apply for that type of transaction. If an Introductory Rate applies to your account, the rates and the
period of time it w ill be effective is show n on the Disclosure accompanying this Agreement. After the
Introductory Rate period expires, the periodic rate w ill automatically increase to the rates that w ould ordinarily
apply for that type of transaction based on the terms of this Agreement.
5. FINANCE CHARGES - New purchases posted to your account during a billing cycle w ill not incur a finance
charge for that billing cycle if you had a zero or credit balance at the beginning of that billing cycle, or you paid
the entire new balance on the previous cycle' s billing statement by the payment due date of that statement;
otherw ise a finance charge w ill accrue from the date a purchase is posted to your account. To avoid an additional
finance charge on the balance of purchases, you must pay the entire new balance on the billing statement by the
payment due date of that statement. A finance charge begins to accrue on cash advances from the date you get
the cash advance or from the first day of the billing cycle in w hich the cash advance is posted to your account,
w hichever is later (transaction date).
The finance charge is calculated separately for purchases and cash advances. For purchases, the finance charge
is computed by applying the periodic rate to the average daily balance of purchases. To calculate the average
daily balance of purchases, w e take the beginning outstanding balance of purchases each day, add any new
purchases, and subtract any payments and/or credits. This gives us the daily balance of purchases. We then add
all of the daily balances of purchases for the billing cycle together and divide the total by the number of days in
the billing cycle. This gives us the average daily balance of purchases.
For cash advances, the finance charge is computed by applying the periodic rate to the average daily balance of
cash advances. To calculate the average daily balance of cash advances, w e take the beginning outstanding
balance of cash advances each day, add in any new cash advances, and subtract any payments and/or credits
that w e apply to the cash advance balance. This gives us the daily balance of cash advances. We then add all of
the daily balances of cash advances for the billing cycle together and divide the total by the number of days in the
billing cycle. This gives us the average daily balance of cash advances. Balance transfers are calculated in the
same manner as cash advances.
6. FOREIGN TRANSACTIONS - Purchases and cash advances made in foreign currencies w ill be debited from
your account in U.S. dollars. The exchange rate betw een the transaction currency and the billing currency used
for processing international transactions is a rate selected by Visa from a range of rates available in w holesale
currency markets for the applicable central processing date, w hich rate may vary from the rate Visa itself receives
or the government-mandated rate in effect for the applicable central processing date. The exchange rate used on
the processing date may differ from the rate that w ould have been used on the purchase date or cardholder
statement posting date.
7. FEES - In addition to the periodic rate, the follow ing additional fees may be imposed on your account. If
applicable to your account, the fee amounts and explanations are disclosed on the Disclosure accompanying this
Agreement. Your account may also be subject to additional fees as set forth on the Disclosure accompanying this
Agreement.
a. Annual Fee. If your account is subject to an Annual Fee, the fee w ill be charged to your account on December
31st of each year. The fee w ill be charged each year until your account is closed and paid in full.
b. Late Payment Fee. If your account is subject to a Late Payment Fee, the fee w ill be charged to your account
w hen you do not make the required minimum payment by or w ithin the number of days of the statement Payment
Due Date set forth on the Disclosure accompanying this Agreement.
c. Over-the-Credit Limit Fee. If you have elected the feature to allow your account to go over your credit limit,
w e may charge you a fee as allow ed by law . How ever, in no case w ill w e impose an over-the-limit fee except in
the next tw o billing cycles unless you have obtained an additional extension of credit in excess of such credit limit
during each subsequent cycle or you have reduced the balance below the credit limit as of the end of each bill
cycle.
d. Returned Payment Fee. If your account is subject to a Returned Payment Fee, the fee w ill be charged to your
account w hen a payment is returned for any reason.
e. Returned Convenience Check Fee. If your account is subject to a Returned Convenience Check Fee, the fee
w ill be charged to your account w hen a convenience check is returned for any reason.
f. Statement Copy Fee. If your account is subject to a Statement Copy Fee, except as limited by applicable law
and w hen the request is made in connection w ith a billing error made by the Credit Union, a fee may be charged
to your account for each copy of a sales draft or statement that you request.
DMDDW5 (MXC501 CCM002)-e

g. Document Copy Fee. If your account is subject to a Document Copy Fee, except as limited by applicable law ,
a fee may be charged to your account for each copy of a sales draft or statement that you request (except w hen
the request is made in connection w ith a billing error made by the Credit Union).
h. Card Replacement Fee. If your account is subject to a Card Replacement Fee, a fee w ill be charged for each
replacement card that is issued to you for any reason.
i. Cash Advance Stop Payment Fee. If your account is subject to the Cash Advance Stop Payment Fee, a fee
w ill be charged to your account as disclosed on the Disclosure accompanying this Agreement.
8. PAYMENTS - Each month you must pay at least the minimum payment show n on your statement by the date
specified on the statement. You may pay more frequently, pay more than the minimum payment or pay the total
new balance in full. If you make extra or larger payments, you are still required to make at least the minimum
payment each month your account has a balance (other than a credit balance). For our Visa cards, the minimum
payment is 2.50% of your total new balance, or $25.00, w hichever is greater, plus the amount of any prior
minimum payments that you have not made, all outstanding unpaid fees and charges, and any amount you are
over your credit limit by the date specified on the statement. The Credit Union also has the right to demand
immediate payment of any amount by w hich you are over your credit limit. In accordance w ith applicable law , the
Credit Union may not post payments to your account or reflect them in your available credit limit on the date they
are received. The Credit Union may delay replenishing your credit limit until the date the payment is posted or the
Credit Union confirms the payment has cleared.
9. PAYMENT ALLOCATION - Subject to applicable law , your payments may be applied to w hat you ow e the
Credit Union in any manner the Credit Union chooses. How ever, in every case, in the event you make a payment
in excess of the required minimum periodic payment, the Credit Union w ill allocate the excess amount first to the
balance w ith the highest annual percentage rate and any remaining portion to the other balances in descending
order based on applicable annual percentage rate.
10. SECURITY INTEREST - You grant the Credit Union a security interest under the Uniform Commercial Code and
under any common law rights the Credit Union may have in any goods you purchase. If you give the Credit Union
a specific pledge of shares by signing a separate pledge of shares, your pledged shares w ill secure your account.
You may not w ithdraw amounts that have been specifically pledged to secure your account until the Credit Union
agrees to release all or part of the pledged amount.
Your Account is secured by all other shares you have in any individual or joint account with the Credit Union,
except for shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law if given as security. These other shares may be withdrawn unless you are
in default under this agreement. You authorize the Credit Union to apply the balance in your individual or joint
share accounts to pay any amounts due on your Account if you should default.
Collateral securing other loans you have w ith the Credit Union may also secure this loan, except that a dw elling
w ill never be considered as security for this account, notw ithstanding anything to the contrary in any other
agreement.
11. DEFAULT - You w ill be in default if you fail to make any minimum payment or other required payment by the
date that it is due. You w ill be in default if you break any promise you make under this Agreement. You w ill be in
default if you die, file for bankruptcy or become insolvent, that is, unable to pay your obligations w hen they
become due. You w ill be in default if you make any false or misleading statements in any credit application or
credit update. You w ill also be in default if something happens that the Credit Union believes may substantially
reduce your ability to repay w hat you ow e.
When you are in default, the Credit Union has the right to demand immediate payment of your full account
balance w ithout giving you notice. If immediate payment is demanded, you agree to continue paying finance
charges at the periodic rate charged before default, until w hat you ow e has been paid, and any shares that w ere
given as security for your account may be applied tow ards w hat you ow e.
12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION - You agree to notify us
immediately, orally or in w riting, at PO Box 179, Greenbelt, MD 20768-0179 or telephone (800) 356-6580 seven
(7) days a w eek, 24 hours a day, of the loss, theft, or unauthorized use of your credit card. You may be liable for
the unauthorized use of your credit card. You w ill not be liable for unauthorized use that occurs after you notify
us of the loss, theft, or possible unauthorized use. You w ill have no liability for unauthorized purchases made
w ith your credit card, unless you are grossly negligent in the handling of your card. In any case, your liability w ill
not exceed $50.00.
13. CHANGING OR TERMINATING YOUR ACCOUNT - As permitted by law , the Credit Union may change the
terms of this Agreement and any attached Disclosure from time to time. Notice of any change w ill be given in
accordance w ith applicable law . If permitted by law and specified in the notice to you, the change w ill apply to
your existing account balance as w ell as to future transactions.
DMDDW5 (MXC501 CCM002)-e

Either you or the Credit Union may terminate this Agreement at any time, but termination by you or the Credit
Union w ill not affect your obligation to pay the account balance plus any finance and other charges you ow e
under this Agreement. Your obligation to pay the account balance plus any finance and other charges you ow e
under this agreement are subject to all applicable law s and regulations regarding repayment requirements. You
are also responsible for all transactions made to your account after termination, unless the transactions w ere
unauthorized.
The card or cards you receive remain the property of the Credit Union and you must recover and surrender to the
Credit Union all cards upon request or upon termination of this Agreement w hether by you or the Credit Union. If
this is a joint account, the paragraph on JOINT ACCOUNTS of this Agreement also applies to termination of the
account.
14. CHANGING OR TERMINATING AUTHORIZED USERS - Upon your request, w e may issue additional cards for
authorized users that you designate. You must notify us in w riting of any termination of an authorized user' s
right to access your account. Your letter must include the name of the authorized user and your account number
and/or any subaccount number issued to the authorized user along w ith the authorized user' s card and any
convenience or other access checks issued to the authorized user. If you cannot return the authorized user' s card
or access checks and if you request your account to be closed, w e w ill close your account and you may apply for
a new account.
15. CREDIT REVIEW AND RELEASE OF INFORMATION - You authorize the Credit Union to investigate your credit
standing w hen opening or review ing your account. You authorize the Credit Union to disclose information
regarding your account to credit bureaus and creditors w ho inquire about your credit standing. If your account is
eligible for emergency cash and/or emergency card replacement services, and you request such services, you
agree that w e may provide personal information about you and your account that is necessary to provide you
w ith the requested service(s).
16. RETURNS AND ADJUSTMENTS - Merchants and others w ho honor your card may give credit for returns or
adjustments, and they w ill do so by sending the Credit Union a credit slip w hich w ill be posted to your account.
If your credits and payments exceed w hat you ow e the Credit Union, the amount w ill be applied against future
purchases and cash advances. If the credit balance amount is $1.00 or more, it w ill be refunded upon your
w ritten request or automatically after six months.
17. ADDITIONAL BENEFITS/CARD ENHANCEMENTS - The Credit Union may from time to time offer additional
services to your account, such as travel accident insurance, at no additional cost to you. You understand that the
Credit Union is not obligated to offer such services and may w ithdraw or change them at any time.
18. MERCHANT DISPUTES - The Credit Union is not responsible for the refusal of any merchant or financial
institution to honor your card. The Credit Union is subject to claims and defenses (other than tort claims) arising
out of goods or services you purchase w ith the card if you have made a good faith attempt but have been unable
to obtain satisfaction from the merchant or service provider, and (a) your purchase w as made in response to an
advertisement the Credit Union sent or participated in sending to you; or (b) your purchase cost more than
$50.00 and w as made in your state or w ithin 100 miles of your home.
19. JOINT ACCOUNTS - If this is a joint account, each of you w ill be individually and jointly responsible for
paying all amounts ow ed under this Agreement. This means that the Credit Union can require any one of you
individually to repay the entire amount ow ed under this Agreement. Each of you authorizes the other(s) to make
purchases or cash advances individually. Any one of you may terminate the account and the termination w ill be
effective as to all of you.
20. EFFECT OF AGREEMENT - This Agreement is the contract w hich applies to all transactions on your account
even though the sales, cash advances, credit or other slips you sign or receive may contain different terms.
21. NO WAIVER - The Credit Union can delay enforcing any of its rights any number of times w ithout losing
them.
22. STATEMENTS AND NOTICES - Statements and notices w ill be mailed or delivered to you at the appropriate
address you have given the Credit Union. Notice sent to any one of you w ill be considered notice to all.
23. SEVERABILITY AND FINAL EXPRESSION - This Agreement and the Disclosure are the final expression of the
terms and conditions of your account. This w ritten Agreement and Disclosure may not be contradicted by
evidence of any alleged oral agreement. Should any part of this Agreement or the Disclosure be found to be
invalid or unenforceable, all other parts of this Agreement and Disclosure shall remain in effect and fully
enforceable to the fullest extent possible under this Agreement.
24. COPY RECEIVED - You acknow ledge that you have received a copy of this Agreement and Disclosure.
25. INTERNET GAMBLING TRANSACTIONS PROHIBITED - You may not use your card to initiate any type of
electronic gambling transaction through the Internet.

DMDDW5 (MXC501 CCM002)-e

26. PENALTY RATE DISCLOSURES - If applicable to your account, all rates for your account, including the rates
for purchases, cash advances, and balance transfers, w ill increase to the Penalty Rate w hen you meet one or
more of the conditions as set forth in the Disclosure accompanying this Agreement. Any rate increases applied to
your account are subject to applicable notice requirements. Please refer to the Disclosure for additional
information regarding the Penalty Rate.
27. VOLUNTARY PAYMENT PROTECTION - We may offer Voluntary Payment Protection to you. Voluntary
Payment Protection is not necessary to obtain credit. If you purchase Voluntary Payment Protection from us, you
authorize us to add the fees or insurance charges monthly to your loan balance and charge you interest on the
entire balance. At our option w e w ill change your payment or the period of time necessary to repay the loan
balance. The rate used to determine the fees or insurance charges may change in the future. If the rate changes,
w e w ill provide any notices required by applicable law .
28. NOTICE TO UTAH BORROWERS - This w ritten agreement is a final expression of the agreement betw een you
and the Credit Union. This w ritten agreement may not be contradicted by evidence of any oral agreement.
29. THE FOLLOWING IS REQUIRED BY VERMONT LAW - NOTICE TO CO-SIGNER - YOUR SIGNATURE ON THIS
NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS LOAN. IF THE BORROWER DOES
NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, w rite to us at the address listed on your statement.
In your letter, give us the follow ing information:
-

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe w hat you believe is w rong and
w hy you believe it is a mistake.

You must contact us:
-

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you w ant to stop payment on the
amount you think is w rong.

You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do w e are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When w e receive your letter, w e must do tw o things:
1. Within 30 days of receiving your letter, w e must tell you that w e received your letter. We w ill also tell you
if w e have already corrected the error.
2. Within 90 days of receiving your letter, w e must either correct the error or explain to you w hy w e believe
the bill is correct.
While w e investigate w hether or not there has been an error:
-

We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and w e may continue to charge you interest
on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
We can apply any unpaid amount against your credit limit.

After w e finish our investigation, one of tw o things w ill happen:
-

If we made a mistake: You w ill not have to pay the amount in question or any interest or other fees
related to that amount.
If we do not believe there was a mistake: You w ill have to pay the amount in question, along w ith
applicable interest and fees. We w ill send you a statement of the amount you ow e and the date payment
is due. We may then report you as delinquent if you do not pay the amount w e think you ow e.

DMDDW5 (MXC501 CCM002)-e

If you receive our explanation but still believe your bill is w rong, you must w rite to us w ithin 10
days telling us that you still refuse to pay. If you do so, w e cannot report you as delinquent w ithout
also reporting that you are questioning your bill. We must tell you the name of anyone to w hom w e
reported you as delinquent, and w e must let those organizations know w hen the matter has been
settled betw een us.
If w e do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied w ith the goods or services that you have purchased w ith your credit card, and you have
tried in good faith to correct the problem w ith the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the follow ing must be true:
1. The purchase must have been made in your home state or w ithin 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if
your purchase w as based on an advertisement w e mailed to you, or if w e ow n the company that sold you
the goods or services.)
2. You must have used your credit card for the purchase. Purchases made w ith cash advances from an ATM
or w ith a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied w ith the purchase, contact us in writing [or
electronically] at the address listed on your statement.
While w e investigate, the same rules apply to the disputed amount as discussed above. After w e finish our
investigation, w e w ill tell you our decision. At that point, if w e think you ow e an amount and you do not pay, w e
may report you as delinquent.

DMDDW5 (MXC501 CCM002)-e

